TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




             Data Used to Report Toll-Free Telephone Quality
                   Are Reliable, but Internal Controls
                        Need to Be Documented




                                           July 21, 2006

                              Reference Number: 2006-40-107




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 21, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Data Used to Report Toll-Free Telephone
                                Quality Are Reliable, but Internal Controls Need to Be Documented
                                (Audit # 200540008)

 This report presents the results of our review to determine whether data used by the Wage and
 Investment Division to calculate the Toll-Free Accounts and Tax Law Customer Accuracy Rates
 were valid and reliable.

 Synopsis
 Each year, millions of customers call the Internal Revenue Service (IRS) toll-free telephone lines
 seeking assistance in understanding the tax law and meeting their tax obligations. Toll-free
 telephone assistors provided over 26 million tax account and 5 million tax law services1 during
 Fiscal Year 2005. Because of the complexity of the tax law and the need to serve millions of
 customers with tax questions, the IRS divides the types of questions commonly asked into
 categories called “applications.” Each application is staffed with a group of assistors that have
 received specialized training to assist customers with specific tax issues. To ensure assistors
 provide top-quality service, the IRS subjects all telephone assistor contacts to numerous levels of
 review. Quality reviews are used to measure employee, operational, and organizational
 performance to identify trends, problem areas, training needs, and opportunities for process
 improvements.


 1
  A service is a telephone interaction between an assistor and a customer. The call is answered by an assistor. The
 customer’s question is addressed, so a service is provided. If the same customer has an additional question or issue
 and is transferred to another area/assistor, an additional service is provided.
                   Data Used to Report Toll-Free Telephone Quality Are Reliable,
                          but Internal Controls Need to Be Documented



Organizational performance results are housed in the National Quality Review System (NQRS)
database. The IRS uses data from the NQRS database to report Toll-Free Accounts and Tax Law
Customer Accuracy Rates to external stakeholders. The
Centralized Quality Review System (CQRS) function has             Quality evaluations in the
implemented a variety of processes and internal controls to     NQRS   database are generally
                                                                valid and reliable but internal
ensure consistent, valid, and reliable data are input to the    control processes need to be
NQRS database. These internal controls include numerous             documented to ensure
activities that help ensure management directives are carried       effective and efficient
out and program objectives are met. Analysis of a sample of              operations.
114 Data Collection Instrument records, transcripts, and
supporting documentation showed that, generally, the quality evaluations entered into the NQRS
database by the CQRS function reviewers are valid and reliable.
Although internal controls are sufficient to ensure the overall quality results of the NQRS
database, not all internal controls are documented. Processes have been developed over time and
need to be documented. For example, the CQRS function Program Manager has established
numerous reviews that provide critical internal controls to ensure the consistency of coding and
accuracy of the information entered into the NQRS database. The review requirements or
procedures for the reviews have not been documented. If the Program Manager leaves the
CQRS function or the organizational structure changes, there will be no centralized and
documented source for ensuring identification and continuation of established processes, which
could affect the efficiency and effectiveness of the CQRS function operations.
In addition, in June 2006, the CQRS function plans to implement Contact Recording2 for call
segments; recordings will be retained only at the call site and generally will be erased within
6 months. Recordings will replace transcripts, and transcripts will no longer be retained.
Without a longer retention period for the recordings, the performance measures for Toll-Free
Accounts and Tax Law Customer Accuracy Rates will generally not be auditable.
There are currently no clear guidelines on whether the transcripts or recordings used for
reporting quality come under the Federal Government record retention requirements. The IRS is
also implementing Contact Recording in its Taxpayer Assistance Centers (local IRS offices that
provide face-to-face tax assistance). We plan to conduct a review of that implementation and
will address whether transcripts and recordings meet the definition of a record that is subject to
Federal Government retention requirements. Therefore, we are making no recommendations
regarding record retention at this time.




2
 Contact Recording captures and records employee/customer interaction, synchronized with computer screen
activity, for replay and quality review.
                                                                                                           2
                Data Used to Report Toll-Free Telephone Quality Are Reliable,
                       but Internal Controls Need to Be Documented




Recommendation
The Commissioner, Wage and Investment Division, should ensure internal controls are centrally
documented to ensure the quality review system continues effective and efficient operations.

Response
IRS management reviewed the draft report and agreed with our recommendation to ensure
internal controls are centrally documented and indicated the CQRS Handbook was revised on
May 30, 2006. Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment
Income Programs) at (202) 622-5916.




                                                                                              3
                       Data Used to Report Toll-Free Telephone Quality Are Reliable,
                              but Internal Controls Need to Be Documented




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 6
          Processes Are in Place to Ensure Data Used to Support
          Toll-Free Accounts and Tax Law Quality Measures Are
          Valid and Reliable, but They Need to Be Documented................................Page 6
                    Recommendation 1:..........................................................Page 9

          Contact Recording Is Being Implemented, and Transcripts
          Will No Longer Be Retained ........................................................................Page 9

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – National Quality Review System Data
          Collection Instrument....................................................................................Page 16
          Appendix V – Management’s Response to the Draft Report ......................Page 19
                    Data Used to Report Toll-Free Telephone Quality Are Reliable,
                           but Internal Controls Need to Be Documented




                                             Background

Each year, millions of customers call the Internal Revenue Service (IRS) toll-free telephone lines
seeking assistance with understanding the tax law and meeting their tax obligations. Toll-free
telephone assistors provided over 26 million tax account and 5 million tax law services1 during
Fiscal Year 2005. Assistors answer customer questions involving tax law and other related tax
account conditions such as refunds, balance-due billing activity, and changes to the amount of
taxes owed. For example, if a customer calls to find out where to mail a tax return, the call
would be routed to an assistor who has been trained to handle IRS procedural issues. If a
customer calls to find out the taxes due on a business tax account, the call would be routed to an
assistor who handles balance-due questions for the business customer.
The IRS uses the Balanced Measurement System to measure organizational and employee
performance. The Balanced Measurement System satisfies
the strategic planning and performance measurement
                                                                  Embedded Quality is a way of
requirements of the Government Performance and Results             doing business that builds
Act of 1993.2 In support of the Balanced Measurement              commitment and capability of
System, the IRS uses a quality measurement system called            individuals to continually
Embedded Quality, which links employee performance to              improve   customer service,
organizational results related to the quality of customer          employee   satisfaction, and
                                                                        business results.
service. The Accounts Management function uses the
Embedded Quality system to report Customer Accuracy,
Professionalism, and Timeliness measures to the IRS Commissioner as part of the Balanced
Measurement System. These measures are used at the strategic level to assess the effectiveness
and overall progress of the IRS organization as a whole in achieving its strategic goal of
improving customer service. In addition, the results are used as support for the budgeting
process.
The Customer Accuracy measure is also reported externally to IRS stakeholders (e.g., Congress
and the Government Accountability Office) and as part of the reporting requirement of the
Government Performance Results Act. The Regulatory Accuracy and Procedural Accuracy
measures are reported internally to IRS management to identify trends and training opportunities.
These quality measures are a numeric indicator of the extent to which completed work meets


1
  A service is a telephone interaction between an assistor and a customer. The call is answered by an assistor. The
customer’s question is addressed, so a service is provided. If the same customer has an additional question or issue
and is transferred to another area/assistor, an additional service is provided.
2
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                             Page 1
                       Data Used to Report Toll-Free Telephone Quality Are Reliable,
                              but Internal Controls Need to Be Documented



prescribed standards. Figure 1 provides details of how business results are reported to
stakeholders.
                      Figure 1: Business Results Reported to Stakeholders3

                        Business
                        Business Results:
                                 Results:           Business
                                                    Business Results:
                                                             Results:              Customer
                                                                                   Customer                            Employee
                                                                                                                       Employee
                             Quality
                             Quality                    Quantity
                                                         Quantity                 Satisfaction
                                                                                  Satisfaction                        Satisfaction
                                                                                                                      Satisfaction


                                                                                                           Definitions:
                                                                                                           Definitions:
                               Timeliness
                               Timeliness                                            
                                                                                      Timeliness
                                                                                        Timeliness –– Resolving
                                                                                                      Resolving anan issue
                                                                                                                      issue inin the
                                                                                                                                  the most
                                                                                                                                      most
SITE                                                                                   efficient
                                                                                        efficient manner
                                                                                                  manner through
                                                                                                          through the
                                                                                                                   the use
                                                                                                                       use ofof proper
                                                                                                                                proper
                                                                                       workload
                                                                                        workload management
                                                                                                   management and
                                                                                                                and time
                                                                                                                      time utilization
                                                                                                                           utilization
                            Professionalism
                            Professionalism                                            techniques
                                                                                        techniques

                                Customer                                  Externally   Professionalism -- Promoting
                                                                                      Professionalism      Promoting aa positive
                                                                                                                         positive image
                                                                                                                                   image ofof
                                Customer                                  Reported     the
                                                                                        the Service
                                                                                            Service by
                                                                                                    by using
                                                                                                       using effective
                                                                                                             effective communication
                                                                                                                       communication
                                Accuracy            Customer
                                                    Customer Accuracy
                                                             Accuracy
                                Accuracy                                  Customer     techniques
                                                                                        techniques
                                                                           Measure
                                                                                     
                                                                                      Customer Accuracy –– Giving
                                                                                       Customer Accuracy    Giving the
                                                                                                                    the correct
                                                                                                                        correct
                      Externally Reported Quality   Regulatory
                                                    Regulatory Accuracy
                                                               Accuracy   Internally   answer
                                                                                        answer with
                                                                                                with the
                                                                                                      the correct
                                                                                                          correct resolution
                                                                                                                   resolution
                               Measures                                   Reported
                                                                          Process    
                                                                                      Regulatory
                                                                                        Regulatory   Accuracy
                                                                                                      Accuracy   –– Adhering
                                                                                                                    Adhering toto statutory/
                                                                                                                                  statutory/
                                                    Procedural
                                                    Procedural Accuracy
                                                               Accuracy   Measures     regulatory
                                                                                        regulatory process
                                                                                                   process requirements
                                                                                                             requirements
                                                                                     
                                                                                      Procedural     Accuracy –– Adhering
                                                                                        Procedural Accuracy          Adhering toto non
                                                                                                                                   non
                                                                                       statutory/
                                                                                        statutory/ regulatory
                                                                                                    regulatory internal
                                                                                                                internal process
                                                                                                                         process
                                                                                       requirements
                                                                                        requirements
Source: Excerpt from the IRS presentation “TIGTA4 Briefing of Embedded Quality,” dated July 22, 2002.

The Embedded Quality system consists of two parts: employee performance and organizational
results. The Centralized Quality Review System (CQRS) function in the Customer Account
Services organization is responsible for collecting the performance data. Employee performance
results data are housed in the Embedded Quality Review System database. The prime vehicle for
collecting these data is through first-line manager reviews of Accounts Management function
employees.
Organizational performance results data are housed in the National Quality Review System
(NQRS) database. Data from the NQRS database are used to report Toll-Free Accounts and Tax
Law Customer Accuracy Rates to external stakeholders. To collect these data, reviewers in the
CQRS function:




3
    The reference to “the Service” in Figure 1 refers to the IRS.
4
    Treasury Inspector General for Tax Administration.
                                                                                                                                 Page 2
                    Data Used to Report Toll-Free Telephone Quality Are Reliable,
                           but Internal Controls Need to Be Documented



First.       Monitor a statistical sample of incoming call segments5 to each call site by
             application.
Second.      Document key points of the conversations. Generally, procedures require reviewers
             to remotely monitor a statistical sample of calls using transcription call sheets, also
             called transcripts. Figure 2 presents an example of a transcript.
                                     Figure 2: CQRS Call Transcript
                        Date:         Reviewer:                DCI #:

                        Site:         Application #:           Assistor Identification #/Name:

                        Call Start Time:           Call End Time:           Case Type:

                        Disclosure:
                               TIN:
                               Name:
                               Address:
                               Date of Birth:
                               Filing Status:
                                                        Narrative
                                       Customer                           Assistor




                      Source: CQRS function web site.

             On the transcripts, reviewers will type or write general identifying information
             (e.g., date, call site, application monitored, call start and stop time, and the record
             number called the Data Collection Instrument (DCI) Number6). Reviewers will also
             document the interaction between the assistors and customers.
Third.       Perform the necessary research using appropriate references and tools to determine
             whether assistors followed guidelines.
Fourth.      Create new DCI records on the NQRS database to record and document whether the
             assistors provided accurate answers. The DCI records capture general information for
             identification purposes (DCI Header section) to identify and evaluate compliance
             with quality standards (DCI Attribute section) and to document synopses of the



5
  The IRS manages call traffic by key segments in the “life” of a call (e.g., the segment from the time a screener
answered the call to when it was transferred to an assistor or from the time an assistor connected to the customer to
the time the customer was transferred or the call ended).
6
  The DCI Number is systemically generated from the NQRS database when the CQRS function reviewer creates a
new record to input his or her evaluation of a monitored call.
                                                                                                              Page 3
                 Data Used to Report Toll-Free Telephone Quality Are Reliable,
                        but Internal Controls Need to Be Documented



           customers’ requests, assistors’ responses, and overall results (DCI Remarks section).
           See Appendix IV for an example of a DCI record.
Fifth.     File the transcripts and related research materials to be retained for subsequent
           reviews. Each reviewer attaches the transcript and related printouts of any research
           performed to a daily information sheet that lists all completed calls reviewed. These
           documents are filed and retained in the group for the current and prior fiscal year and
           are available for subsequent reviews, including reviews in response to a rebuttal of
           results.
The NQRS database uses attributes to calculate five quality measures: Timeliness,
Professionalism, Customer Accuracy, Regulatory Accuracy, and Procedural Accuracy. Each
attribute is coded as “meeting the quality standard,” “not
meeting the quality standard,” or “not appropriate.” Each
                                                               The five quality measures are:
coded attribute is the equivalent of an opportunity. When       Timeliness, Professionalism,
an attribute is coded as not meeting the quality standard, it       Customer Accuracy,
is considered a defect. Coding of the Regulatory and              Regulatory Accuracy, and
Procedural Accuracy Attributes determines the coding                Procedural Accuracy.
results of the single Customer Accuracy Attribute
(correct/complete response/resolution). Although a defect may be charged to a Procedural or
Regulatory Accuracy Attribute, it may not always result in a Customer Accuracy Attribute
defect.
The Customer Accuracy Attribute is based on whether the assistor provided the correct/complete
response/resolution to the issue and, if appropriate, took the necessary actions to provide the
response or resolution. The reviewer charges a defect if one of the following is present:
•   The action or response by the assistor is in direct conflict with established IRS guidelines and
    procedures.
•   The reviewer can definitively determine whether the customer was negatively affected by the
    assistor’s response.
The NQRS Remarks section on the DCI record provides a synopsis of the customer’s issue, the
employee’s actions/response, and the evaluative feedback. The volume of text entered in this
field is systemically limited; therefore a synopsis of only the key points of the call should be
entered. The reviewer must provide feedback on any attribute coded as a defect and identify the
specific Internal Revenue Manual reference citing the error.
Results from the CQRS function’s independent review of a statistical sample of calls are rolled
into a weighted national accuracy report, the Weighted Customer Accuracy Report, to provide an
assessment of the customer service provided by the assistors responding to customer questions
on the toll-free tax accounts and tax law telephone lines. The Fiscal Year 2005 NQRS Weighted
Customer Accuracy Reports shows the CQRS function reviewers sampled and monitored

                                                                                             Page 4
                Data Used to Report Toll-Free Telephone Quality Are Reliable,
                       but Internal Controls Need to Be Documented



35,336 toll-free tax account call segments and evaluated 32,527 tax account call segments for
accuracy. The accuracy rate was weighted by call site and projected over a population of
26,067,230 tax account call segments to produce the Customer Accuracy Rate of 91.5 percent.
In addition, the CQRS function reviewers sampled 14,483 toll-free tax law call segments and
evaluated 12,041 tax law call segments for accuracy. The accuracy rate was weighted by call
site and projected over a population of 5,026,187 tax law call segments to produce the Customer
Accuracy Rate of 89.0 percent.
This review was performed in the Customer Account Services organization of the Wage and
Investment Division in Atlanta, Georgia, and the Centralized Quality Review Site in
Philadelphia, Pennsylvania, during the period April 2005 through March 2006. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                         Page 5
                 Data Used to Report Toll-Free Telephone Quality Are Reliable,
                        but Internal Controls Need to Be Documented




                                 Results of Review

Processes Are in Place to Ensure Data Used to Support Toll-Free
Accounts and Tax Law Quality Measures Are Valid and Reliable, but
They Need to Be Documented
The CQRS function has implemented a variety of processes and internal controls to ensure
consistent, valid, and reliable data are input to the NQRS database. These internal controls
include numerous activities that help ensure management directives are carried out and program
objectives are met.
Our review of a sample of 114 DCI records, transcripts, and supporting documentation showed
CQRS function reviewers’ overall quality evaluations (correct/complete response/resolution)
entered into the NQRS database are valid and reliable. The NQRS database accurately reflected
the reviewers’ ratings of their calls for 105 (92 percent) of the 114 DCI records reviewed.
Specifically, the transcripts associated with the DCI records provided the necessary information
to identify the key events of the conversations and supported the overall quality attributes entered
on the NQRS DCI records reviewed. For 9 (8 percent) of the 114 DCI records sampled, either
the DCI record or transcript contained errors, insufficient information to support the evaluation,
or opportunities to provide better customer service. However, only two of these related to
accuracy errors. This error rate would not significantly affect the reliability of the statistics
reported by the IRS on the accuracy of toll-free responses. Although we are making no
recommendations regarding the errors, our concerns with the sample cases reviewed are as
follows:
•   Two DCI records were not properly coded to reflect customer accuracy errors. In both
    cases, the customer was not provided a correct and/or complete response. For one
    DCI record, the CQRS function reviewer accurately identified and coded the appropriate
    Procedural Accuracy Attributes with defects but did not code the Customer Accuracy
    Attribute with a defect. For the other DCI record, the CQRS function reviewer did not
    accurately identify and code the Procedural Accuracy Attributes and Customer Accuracy
    Attribute as errors.
•   Four transcripts did not contain enough information to definitively conclude the
    assistor completely and accurately responded to the customers’ needs. Because we were
    not provided access to the recordings and we also did not monitor the calls, we had to rely
    exclusively on call transcripts to determine if the DCI records were accurate. The CQRS
    function reviewers cannot transcribe the calls verbatim. Some CQRS function reviewers
    transcribe more information than others. Some reviewers have the Probe and Response

                                                                                             Page 6
                    Data Used to Report Toll-Free Telephone Quality Are Reliable,
                           but Internal Controls Need to Be Documented



    Guide (the Guide)7 with them when they monitor the calls and identify whether probes or
    responses are/are not addressed while they are monitoring; other reviewers only listen and
    transcribe, choosing to research the Guide after the calls. Some reviewers listen and
    document at the same time, while others document everything after the call. Some reviewers
    transcribe almost every detail, while others limit their transcription to what they consider
    significant.
•   Three transcripts showed the assistor could have provided better customer service. The
    Embedded Quality process does not take into account the degree or level of service provided
    to a customer. If the assistor complies with required IRS guidelines, the CQRS function
    reviewer records no defect and quality service is considered provided. Our review identified
    specific instances where this assumption was not always correct. For example, one transcript
    documented a customer asking for a Form 10408 and a form for dividends. The assistor
    prompted the customer by referring to Schedule D.9
    We believe the assistor should have asked the customer what type of dividends he or she was
    reporting before providing the schedule number. Dividends are reported on either Interest
    and Ordinary Dividends (Schedule B) or Schedule D. CQRS function management believes
    that, because the customer agreed to what the assistor provided, not once but twice, the
    customer was satisfied. The customer will not know whether the correct form was received
    until he or she receives the form and completes the tax return.
In addition, 13 DCI records contained Procedural Attribute errors and 24 DCI records had errors
in the DCI Header Section. However, these Procedural Attribute errors did not affect the final
Customer Accuracy Attribute.10 CQRS function management stated the general call information
is not the main focus of their review and guidelines probably should be clarified for the selection
of some header fields. The errors in the DCI Header section also do not affect the accuracy of
the calls. Nevertheless, these database errors may produce doubt as to the reliability of the
NQRS database and its use for other reporting purposes and analyses.

The calls sampled and monitored were statistically selected, were representative
of the total population of services provided in each call site, and produced valid
projections
The IRS Office of Statistics of Income (SOI) helps the CQRS function select a statistical sample
of calls with which to report accuracy results. It uses an algorithm to determine a statistically
valid sample size for each call site and call product line (tax accounts or tax law). The sample is


7
  This Guide is used by assistors to respond to telephone tax law inquiries on the topics covered in the Guide.
8
  U.S. Individual Income Tax Return (Form 1040).
9
  Capital Gains and Losses (Schedule D).
10
   Overall, 83 DCI records were fully supported by the transcripts, and 31 DCI records contained 1 or multiple
accuracy (9), attribute (13), or header (24) errors.
                                                                                                             Page 7
                 Data Used to Report Toll-Free Telephone Quality Are Reliable,
                        but Internal Controls Need to Be Documented



further stratified by date and time for each reviewer. CQRS function management appropriately
followed the Office of SOI sampling plan and implemented an additional sampling plan by
application to ensure the call site sample also reflected the types of services provided by the call
site. CQRS function management adhered to and exceeded the Fiscal Year 2005 sampling plan
by evaluating 32,527 tax account and 12,041 tax law call segments for accuracy.

Established processes and internal controls ensure consistent and reliable
results are documented in the NQRS database
The Customer Account Services organization’s quality assurance manual provides procedures
for program quality reviews, call site quality reviews, and front-line manager evaluative
employee reviews. The guidance is very broad to allow for all review levels. Specific
day-to-day guidelines are not provided in the manual. For example, internal controls include:
•   Monitoring adherence to the Office of SOI call site sampling plan provided and
    implementing an additional sampling plan by application to ensure evaluated call segments
    are in line with call traffic by service provided/application.
•   Ensuring NQRS database integrity by limiting access to the database and properly
    establishing user profiles to ensure appropriate capabilities and authorizations for creating,
    editing, and deleting DCI records.
•   Developing a web site for CQRS function managers and reviewers that contains the
    CQRS function’s internal policies and procedures, Office of SOI information, application
    schedules, monitoring instructions, general and specific attribute coding guidelines,
    consistency exercises, group meeting minutes, forms, and training links.
•   Establishing various managerial reviews of individual reviewers to ensure compliance with
    the sampling plan and attribute coding consistency by performing online or joint monitoring
    with the reviewer and closed case reviews (similar to our review of comparing the transcripts
    to the DCI records).
Although internal controls are sufficient to ensure the overall quality results of the
NQRS database, not all internal controls are documented. Numerous processes have been
developed over time and need to be documented. For example, the CQRS function Program
Manager has established numerous reviews that provide critical internal controls to ensure the
consistency of coding and accuracy of the information entered into the NQRS database. The
review requirements or procedures for the reviews have not been documented. If the Program
Manager leaves the CQRS function or the organizational structure changes, there will be no
centralized and documented source with which to ensure identification and continuation of
established processes. This could affect the efficiency and effectiveness of CQRS function
operations.



                                                                                              Page 8
                   Data Used to Report Toll-Free Telephone Quality Are Reliable,
                          but Internal Controls Need to Be Documented



According to the Government Accountability Office, internal controls and all transactions and
other significant events need to be clearly documented, and the documentation should be readily
available for examination. The documentation should appear in management directives,
administrative policies, or operating manuals and may be in paper or electronic form. All
documentation and records should be properly managed and maintained.11
The CQRS function has used the method of evaluating telephone operations quality through the
use of coding attributes since 1998. Documentation of internal controls and the experience and
expertise gained by CQRS function management should be used for identification of best
practices and made available to other functions as the Embedded Quality process is
implemented by other functions and programs.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should ensure
internal controls are centrally documented to ensure the quality review system continues
effective and efficient operations.
        Management’s Response: IRS management agreed with our recommendation and
        stated they completed the action on May 30, 2006, to document the additional managerial
        practices and internal controls in the CQRS Handbook.

Contact Recording Is Being Implemented, and Transcripts Will No
Longer Be Retained
In June 2006, the CQRS function plans to implement Contact Recording12 for call segments;
recordings will be retained only at the individual call sites and generally will be erased within
6 months. Recordings will replace transcripts, and transcripts will no longer be retained.
Without transcripts and/or a longer retention period for the recordings, the performance measures
for Toll-Free Accounts and Tax Law Customer Accuracy Rates will generally not be auditable.
CQRS function management does not believe the recordings will be needed to support the NQRS
database because the DCI records are being retained for 3 years. However, DCI records do not
provide sufficient information with which to validate the results of a live or recorded contact.
Without the paper transcripts or recordings, a third party will be unable to review or validate the
performance measures obtained from the NQRS database. In fact, CQRS function managers
currently use reviewers’ transcripts when evaluating CQRS function reviews. A paper transcript
or the future recording will be needed to validate the information in the NQRS database.


11
  Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1, dated November 1999).
12
  Contact Recording captures and records employee/customer interaction, synchronized with computer screen
activity, for replay and quality review.
                                                                                                       Page 9
                 Data Used to Report Toll-Free Telephone Quality Are Reliable,
                        but Internal Controls Need to Be Documented



If Contact Recording had been operational in all call sites during Fiscal Year 2005,
approximately 31 million call segments would have been recorded. The CQRS function
reviewers evaluated 32,527 tax account and 12,041 tax law call segments for Customer
Accuracy. Approximately 45,000 recordings out of the population of approximately 31 million
recorded tax account and tax law call segments would need to be retained to support the
91.5 percent Toll-Free Accounts and 89.0 percent Toll-Free Tax Law Customer Accuracy Rates
reported in Fiscal Year 2005. The CQRS function currently has approximately
45,000 paper transcripts stored in its offices; those transcripts will be destroyed in October 2006.
Once Contact Recording is fully operational, CQRS function management plans to no longer
create or maintain transcripts.
There are currently no clear guidelines on whether the transcripts or recordings used for
reporting quality come under the Federal Government record retention requirements. The IRS is
also implementing Contact Recording in its Taxpayer Assistance Centers (local IRS offices that
provide face-to-face tax assistance). We will be conducting a review of that implementation and
will address whether transcripts and recordings meet the definition of a record that is subject to
Federal Government record retention requirements. Therefore, we are making no
recommendations regarding record retention at this time.




                                                                                            Page 10
                     Data Used to Report Toll-Free Telephone Quality Are Reliable,
                            but Internal Controls Need to Be Documented



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether data used by the Wage and
Investment Division to calculate the Toll-Free Accounts and Tax Law Customer Accuracy Rates
were valid and reliable. To accomplish our objective, we:
I.       Determined the purpose of the Centralized Quality Review Staff (CQRS) function and its
         role in providing information for the Internal Revenue Service (IRS) Wage and
         Investment Division Strategy and Program Plan and the IRS Balanced Measurement
         System.1
II.      Determined whether the sampling plan used by the CQRS function will provide
         statistically valid quality measures by obtaining and reviewing the Fiscal Year 2005
         sampling plan, consulting with a contract statistician, and determining whether the plan
         was being followed.
III.     Determined whether the Data Collection Instrument (DCI) records2 on the National
         Quality Review System (NQRS) database3 accurately document the monitored calls so
         quality measures are accurately calculated.
         A. Accessed the NQRS database to identify the population of 17,952 Accounts-General
            DCI records and 8,396 Tax Law-General DCI records that were used to calculate
            Customer Accuracy during the period January 1 through June 30, 2005, and extracted
            limited header information (DCI Number, CQRS Reviewer Number, Closing Date,
            and Review Date).
         B. Determined a minimum statistical sample size of 98 Accounts-General DCI records
            and 98 Tax Law-General DCI records using a sampling methodology similar to that
            of the IRS (90 percent confidence level, 90 percent expected accuracy rate, and
            +5 percent precision margin).
         C. To identify the cases for each sample (Sample DCI Numbers), generated 125 random
            numbers between 1 and 17,952 to select the Accounts-General DCI records,

1
  The Balanced Measurement System includes three measures balanced among customer satisfaction, employee
satisfaction, and business results (comprised of work quantity and quality measures) and reflects the IRS’ mission
and strategic goals and priorities.
2
  A DCI is used to identify and document the quality standard attributes satisfied or not satisfied by the assistors to
determine whether the answers provided were accurate.
3
  Organizational performance results are housed in the NQRS database. The IRS uses data from the NQRS database
to report Toll-Free Accounts and Tax Law Customer Accuracy Rates to external stakeholders.
                                                                                                             Page 11
               Data Used to Report Toll-Free Telephone Quality Are Reliable,
                      but Internal Controls Need to Be Documented



         generated another 125 random numbers between 1 and 8,396 to select the
         Tax Law-General DCI records, and obtained 250 corresponding call transcripts
         prepared by CQRS function reviewers.
      D. Evaluated the reliability of the selected DCI records and determined whether
         third-party reviewers have sufficient facts to arrive at the same conclusions by
         reviewing and comparing 114 transcripts to the related DCI Header, Attribute, and
         Remarks sections. Transcripts were not reviewed in selection order rendering our
         sample judgmental. Based on the results of reviewing a judgmental sample of
         50 Accounts-General and 64 Tax Law-General transcripts and DCI records and
         identified internal controls established, we discontinued our review.
      E. Identified potential errors in transcripts and DCI records and discussed potential
         errors with CQRS function management to obtain agreement to the facts.
IV.   Evaluated CQRS function managerial oversight of the review process (i.e., what internal
      controls are in place to validate the results and ensure the reliability of the data).
      A. Determined the process used to assign reviewers to product lines and applications and
         whether the process adhered to the sampling plan. We also determined how section
         managers ensured reviewers correctly documented DCI records and evaluated
         whether the process was effective to ensure valid results.
      B. Determined the procedures used to ensure adherence to the sampling plan (by
         reviewer, application, and call site).
      C. Determined the procedures used to control call site rebuttals and evaluated whether
         the process was effective to document changes to the NQRS database.
      D. Determined the process used to modify and delete DCI records.
V.    Determined what NQRS database reports and processes are used to ensure reliable and
      valid results.
      A. Generated select reports, evaluated them for accuracy, and identified the specific
         DCI records that comprise data captured in the reports.
      B. Reviewed DCI records’ attributes to determine whether they were calculated correctly
         and rolled up into the reports.
      C. Traced the sampled DCI records (from Step III.C.) to determine whether they were
         captured correctly in respective reports.
      D. Identified variances and discussed with program analysts the process used to correct
         discrepancies and determined the impact on the reliability of accuracy measures.



                                                                                         Page 12
               Data Used to Report Toll-Free Telephone Quality Are Reliable,
                      but Internal Controls Need to Be Documented



VI.   Evaluated internal controls over the NQRS database.
      A. Identified the types of validity and maintenance tests performed and how program
         calculations were validated (e.g., customer accuracy rates, precision margin).
      B. Determined whether internal controls, all transactions, and other significant events
         were clearly documented and the documentation was readily available for
         examination.




                                                                                        Page 13
               Data Used to Report Toll-Free Telephone Quality Are Reliable,
                      but Internal Controls Need to Be Documented



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Lynn Faulkner, Lead Auditor
Jack Forbus, Senior Auditor
Sharon Shepherd, Senior Auditor
Jerry Douglas, Auditor
Kathy Henderson, Auditor




                                                                                   Page 14
               Data Used to Report Toll-Free Telephone Quality Are Reliable,
                      but Internal Controls Need to Be Documented



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Chief Financial Officer OS:CFO
Deputy Commissioner, Wage and Investment Division SE:W
Associate Chief Financial Officer for Corporate Performance Budgeting OS:CFO:CPB
Director, Business Systems Planning, Wage and Investment Division SE:W:BSP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief, Program Coordination and Support, Wage and Investment Division SE:W:CAS:PCS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
   Chief, Agency-Wide Shared Services OS:A:F
   Chief Financial Officer OS:CFO
   Chief Information Officer OS:CIO:SM:PO
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                               Page 15
                 Data Used to Report Toll-Free Telephone Quality Are Reliable,
                        but Internal Controls Need to Be Documented



                                                                                 Appendix IV

                   National Quality Review System
                     Data Collection Instrument

The Centralized Quality Review Staff function is responsible for collecting data that will provide
a basis for measuring and improving program effectiveness. Organizational performance results
data are housed in the National Quality Review System (NQRS) database. Data from the NQRS
database are used to report Toll-Free Accounts and Tax Law Customer Accuracy Rates to
external stakeholders.
Centralized Quality Review Staff function reviewers remotely monitor a statistical sample of
incoming call segments to evaluate the accuracy of the actions taken and responses provided by
assistors to customers and enter the results into the NQRS database using a Data Collection
Instrument record. The NQRS database uses attributes to calculate five quality measures:
Timeliness, Professionalism, Customer Accuracy, Regulatory Accuracy, and Procedural
Accuracy.
Figure 1 provides an example of a Data Collection Instrument record of a call relating to a
request for tax forms. The Quality Assurance Metrics section provides the calculation of the
ratio of defects to opportunities. For example, three Procedural Accuracy Attributes were coded
(Attribute Code 003, 624, and 706 as shown on the last page). The reviewer marked each
attribute as “Yes,” indicating the assistor met each quality standard. Therefore, the assistor
received 100 percent for Procedural Accuracy.




                                                                                          Page 16
Data Used to Report Toll-Free Telephone Quality Are Reliable,
       but Internal Controls Need to Be Documented




                                                        Page 17
                   Data Used to Report Toll-Free Telephone Quality Are Reliable,
                          but Internal Controls Need to Be Documented




Figure 1: National Quality Review System




                                                                           Page 18
    Data Used to Report Toll-Free Telephone Quality Are Reliable,
           but Internal Controls Need to Be Documented



                                                      Appendix V

Management’s Response to the Draft Report




                                                            Page 19
Data Used to Report Toll-Free Telephone Quality Are Reliable,
       but Internal Controls Need to Be Documented




                                                        Page 20
Data Used to Report Toll-Free Telephone Quality Are Reliable,
       but Internal Controls Need to Be Documented




                                                        Page 21
